No. 19-767
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

NATIONAL ASSOCIATION FOR GUN RIGHTS, INC.,
Petitioner,
v.
JEFF MANGAN, IN HIS OFFICIAL CAPACITY AS THE
COMMISSIONER OF POLITICAL PRACTICES FOR THE
STATE OF MONTANA, ET AL., Respondents.
____________________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
____________________
Brief Amicus Curiae of Free Speech Coalition,
Free Speech Defense and Education Fund, Gun
Owners Foundation, Gun Owners of America,
The National Right to Work Committee, U.S.
Constitutional Rights Legal Defense Fund,
Patriotic Veterans, Public Advocate of the
United States, Downsize DC Foundation,
DownsizeDC.org, Conservative Legal Defense
and Education Fund, American Target
Advertising, and Restoring Liberty Action
Committee in Support of Petitioner
____________________
MARK J. FITZGIBBONS
Manassas, VA 20110
Attorney for Amicus Curiae
ATA
JOSEPH W. MILLER
Fairbanks, AK 99708
Attorney for Amicus Curiae
RLAC
*Counsel of Record

WILLIAM J. OLSON*
HERBERT W. TITUS
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae
January 15, 2020

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I.

THE STATE STATUTE UNDER REVIEW IS
MONTANA’S SECOND ATTEMPT TO
CIRCUMVENT THIS COURT’S DECISION IN
CITIZENS UNITED . . . . . . . . . . . . . . . . . . . . . . . 5
A. Montana’s First Effort to Ban Corporate
Expenditures with MCA § 13-35-227
(1912) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
B. Montana’s Second Effort to Ban
Corporate Expenditures with MCA § 131-101 (2015) . . . . . . . . . . . . . . . . . . . . . . . . 7
C. Montana Law Even Regulates
Distribution of Books Mentioning
Candidates . . . . . . . . . . . . . . . . . . . . . . . . 11
D. Montana Law Imposes Burdensome
Political Committee Status on
Individuals and Corporations . . . . . . . . . 12
E. Montana Law Compels Many
Nonprofits to Make Public Disclosure of
Donor Lists . . . . . . . . . . . . . . . . . . . . . . . . 13

ii
II.

MONTANA LAW SUBVERTS THE PEOPLE’S
RIGHT OF ASSEMBLY AND TO PETITION
GOVERNMENT . . . . . . . . . . . . . . . . . . . . . . . . . 15

III. THE FREEDOM OF THE PRESS PROTECTS THE
PREROGATIVES OF THE PEOPLE FROM
INTRUSION BY POLITICIANS CONTROLLING
POLITICAL DISCOURSE . . . . . . . . . . . . . . . . . . 22
IV. MONTANA IMPOSES SIGNIFICANT BURDENS
ON FIRST AMENDMENT RIGHTS OF CHARITIES

24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Amendment I . . . . . . . . . . . . . . . . . . . . . . . . 5, passim
STATUTES
26 U.S.C. § 501 . . . . . . . . . . . . . . . . . . . . . . 4, 25, 26
52 U.S.C. § 30101 . . . . . . . . . . . . . . . . . . . . . . . . . 12
Bipartisan Campaign Reform Act of 2002,
116 Stat. 89 . . . . . . . . . . . . . . . . . . . . . 3, 8, 9, 10
MCA § 13-1-101 . . . . . . . . . . . . . . . . . . . . . . 7, passim
MCA § 13-35-227 . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
MCA § 13-37-101 . . . . . . . . . . . . . . . . . . . . . . . . . . 22
MCA § 13-37-102 . . . . . . . . . . . . . . . . . . . . . . . 20, 22
MCA § 13-37-103 . . . . . . . . . . . . . . . . . . . . . . . . . . 20
MCA § 13-37-111 . . . . . . . . . . . . . . . . . . . . . . . . . . 20
MCA § 13-37-114 . . . . . . . . . . . . . . . . . . . . . . . . . . 20
MCA § 13-37-117 . . . . . . . . . . . . . . . . . . . . . . . . . . 20
MCA § 13-37-229 . . . . . . . . . . . . . . . . . . . . . . . . . . 14
REGULATIONS
11 C.F.R. § 100.29a . . . . . . . . . . . . . . . . . . . . . . . . 10
11 C.F.R. § 109.21 . . . . . . . . . . . . . . . . . . . . . . . . . . 8
26 C.F.R. § 1.501(c)(4)-1 . . . . . . . . . . . . . . . . . . . . 15
CASES
American Tradition Partnership, Inc. v. Bullock,
567 U.S. 516 (2012) . . . . . . . . . . . . . . . . . . . . . . 5
Buckley v. Valeo, 424 U.S. 1 (1976) . . . . . . . . . 6, 24
Citizens United v. Federal Election
Commission, 558 U.S. 310 (2010) . . . . . . . . 3, 5
DeJonge v. Oregon, 299 U.S. 353 (1937) . . . . . . . 21

iv
Independence Institute v. FEC,
216 F. Supp. 3d 176 (D.D.C. 2016) . . . . . . . . . 26
Independence Institute v. FEC,
137 S. Ct. 1204 (2017) . . . . . . . . . . . . . . . . . . . 26
McConnell v. Federal Election Commission,
540 U.S. 93 (2003) . . . . . . . . . . . . . . . . 10, 15, 24
Miami Herald Publishing Co., Inc. v. Tornillo,
418 U.S. 241 (1974) . . . . . . . . . . . . . . . . . . . . . 23
United States v. Cruikshank,
92 U.S. 542 (1876) . . . . . . . . . . . . . . . . . . . . . . 21
Western Tradition Partnership v. Attorney
General, 271 P.3d 1 (Mont. 2011) . . . . . . . . . . 7
Western Tradition Part. v. Montana Attorney
General, 2010 Mont. Dist. LEXIS 412 (1st
Judicial District Court of Montana, Lewis
and Clark County, 2010) . . . . . . . . . . . . . . . 6, 7
MISCELLANEOUS
J. Miller, Monopoly Politics (Hoover Institute
Press: 1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
J. Story, II Commentaries on the Constitution
(5th ed. 1891) . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Sources of our Liberties at 331 (R. Perry &
J. Cooper, eds., ABA Foundation: 1973) . . . . 21

INTEREST OF THE AMICI CURIAE1
Free Speech Coalition, Gun Owners of America,
Inc., The National Right to Work Committee, Patriotic
Veterans, Public Advocate of the United States, and
DownsizeDC.org are nonprofit social welfare
organizations, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4). Free
Speech Defense and Education Fund, Gun Owners
Foundation, U.S. Constitutional Rights Legal Defense
Fund, Downsize DC Foundation, and Conservative
Legal Defense and Education Fund are nonprofit
educational and legal organizations, exempt from
federal income tax under IRC section 501(c)(3).
American Target Advertising is a for-profit corporation
headquartered in Manassas, Virginia. Restoring
Liberty Action Committee is an educational
organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.

1

It is hereby certified that counsel for the parties have consented
to the filing of this brief; that counsel of record for all parties
received notice of the intention to file this brief at least 10 days
prior to its filing; that no counsel for a party authored this brief in
whole or in part; and that no person other than these amici curiae,
their members, or their counsel made a monetary contribution to
its preparation or submission.

2
Some of these amici were plaintiffs in McConnell
v. Federal Election Commission, 540 U.S. 93 (2003),
and many have filed amicus briefs in other cases in
this Court involving election law, including:
• Nixon v. Shrink PAC, Brief Amicus Curiae of
Gun Owners of America, et al. (U.S. Supreme
Court) (June 7, 1999);
• Federal Election Commission v. Beaumont,
Brief Amicus Curiae of Real Campaign
Reform.org, et al. (U.S. Supreme Court) (Feb.
10, 2003);
• Federal Election Commission v. Wisconsin
Right to Life, Brief Amicus Curiae of Citizens
United, et al. (U.S. Supreme Court) (Mar. 23,
2007);
• Citizens United v. Federal Election
Commission, Brief Amicus Curiae of Free
Speech Defense and Education fund, et al. (U.S.
Supreme Court) (June 31, 2009);
• McCutcheon v. Federal Election Commission,
Brief Amicus Curiae of Downsize DC
Foundation, et al. (U.S. Supreme Court) (May
13, 2013); and
• Independence Institute v. Federal Election
Commission, Brief Amicus Curiae of Free
Speech Defense and Education Fund, et al. (U.S.
Supreme Court) (Jan. 9, 2017).
SUMMARY OF ARGUMENT
In 2015, the Montana legislature enacted a law
governing “electioneering communications” —
borrowing a term which Congress had employed in the

3
Bipartisan Campaign Reform Act of 2002 to require
reporting of a narrow category of broadcast
advertisements mentioning a candidate, which are
made shortly before an election. However, Montana
legislators chose to infuse that term with such
extraordinary breadth that it applies to virtually any
type of communication whatsoever to more than 100
persons, which even mentions a Montana elected
official seeking re-election, and which are made during
six months of every election year. Under the Montana
definition, virtually any criticism of state officeholders
seeking re-election is at least heavily regulated, if not
suppressed.
Moreover, Montana treats as “electioneering
communications” those communications traditionally
understood to be pure “issue advocacy.” While the
purpose of the law was said to increase public
knowledge about election-related communications, the
Chapter title of the Montana Code encompassing these
restrictions reveals the legislature’s incumbentprotection goal — to exercise state “Control of
Campaign Practices.” Montana Code Annotated, Title
11, Chapter 37 (emphasis added).
In 2012, the Montana Supreme Court refused to
apply this Court’s Citizens United decision to its state
law banning corporations from making “expenditures”
with respect to elections, requiring this Court to act
summarily to restore order. Now, with the challenged
law, the Montana legislature has developed a more
devious way to suppress such expenditures, and the
Ninth Circuit has approved that restriction, requiring
further action by this Court. The burdens imposed on

4
nonprofit corporations by this 2015 law will cause
many, if not most, to withdraw from the public square
not just to avoid the need to report the expenditure
once as required under federal law, but also to
reconstitute themselves as a “political committee,”
designating a treasurer, using an in-state bank,
complying with recordkeeping requirements, making
multiple filings, and disclosing the names, addresses,
and occupations of donors of over $35 to the nonprofit
organization with respect to such activities.
Through the challenged law, Montana seeks to
suppress the exercise by Montanans and others of the
rights of assembly and petition. The Ninth Circuit
viewed the numerous restrictions and requirements
imposed on those wanting to communicate with
Montanans as a “minimal burden,” but nothing could
be farther from the truth. Any “electioneering
communication” may be challenged by the
“Commissioner of Political Practices,” acting on behalf
of the legislators, who is empowered with vast powers
of investigation and enforcement — and even the
power to declare some communications completely
exempt from the act. By suppressing communications,
the Montana legislature also has abridged Freedom of
the Press by usurping the inalienable right of the
people to be their own editors in America’s free
marketplace of ideas. The challenged statute even
regulates the distribution of books which have any
reference to any person seeking office in Montana.
Lastly, the challenged statute would compel charities
exempt from federal income taxation under IRC
§ 501(c)(3) to declare themselves to be “political
committees,” opening them to unjust criticism for

5
engaging in electioneering activities, even when they
were pursuing their permissible, non-electoral,
charitable, and educational activities.
ARGUMENT
I.

THE STATE STATUTE UNDER REVIEW IS
MONTANA’S SECOND ATTEMPT TO
CIRCUMVENT THIS COURT’S DECISION IN
CITIZENS UNITED.

On June 25, 2012, in a one-paragraph opinion, this
Court summarily struck down a century-old Montana
state law which banned all corporations from making
“expenditures” with respect to elections. See American
Tradition Partnership, Inc. v. Bullock, 567 U.S. 516
(2012). In doing so, this Court gave notice that its
decision in Citizens United v. Federal Election
Commission, 558 U.S. 310 (2010) was not to be trifled
with — the First Amendment secures the freedom of
all American citizens, including those who employ the
corporate form, to exercise their rights.
Undeterred by that judicial setback, the Montana
state legislature enacted a second law to achieve much
the same purpose, but through an indirect and much
more subtle approach. Under the guise of controlling
“electioneering communications,” the Montana
legislature enacted a law designed to severely control,
if not eliminate, corporate expenditures in the state’s
political marketplace. Certiorari should be granted to
bring to an end this second attempt to end run
Citizens United. Indeed, insofar as the Montana
legislature enacted this 2015 law in the aftermath of,

6
and in defiance of, this Court’s decision in Citizens
United, these amici suggest that this case is a
candidate for this Court to summarily grant, vacate,
and remand the Ninth Circuit’s decision which upheld
the Montana law.
A.

Montana’s First Effort to Ban Corporate
Expenditures with MCA § 13-35-227
(1912).

Challenged in the earlier litigation was a 1912
Montana law which prohibited corporations from
making an expenditure2 in connection with a candidate
or a political committee that supports or opposes a
candidate or a political party. See § 13-35-227,
Montana Code Annotated (“MCA”). Montana law
allowed such expenditures to be made only by political
committees.
The state district court which heard the challenge
readily understood that Citizens United governed it,
finding that the statute was “unconstitutional and
unenforceable due to the operation of the First
Amendment” and that “‘Citizens United is unequivocal;
the government may not prohibit independent and
indirect corporate expenditures on political speech.’”
2

The 1912 statute equally prohibited corporate “expenditures”
and “contributions,” which is at fundamental odds with this
Court’s principled distinction developed in Buckley v. Valeo, 424
U.S. 1 (1976), where greater regulation over contributions
(including coordinated expenditures) was allowed, due to the
danger of “corruption and the appearance of corruption,” than was
allowed over expenditures, where there was no such risk. See id.
at 25.

7
Western Tradition Part. v. Montana Attorney General,
2010 Mont. Dist. LEXIS 412, *17 (1st Judicial District
Court of Montana, Lewis and Clark County, 2010)
(citation omitted).
However, on appeal, the Montana Supreme Court
reversed, with two strong dissenting opinions. See
Western Tradition Partnership v. Attorney General,
271 P.3d 1 (Mont. 2011). The Court took the position
that the history of political corruption in Montana and
aspects of the electorate and campaigns in Montana
created a political culture which was unique, resulting
in the State legislature being deemed to have a much
more compelling state interest to enact and defend its
state prohibition than the federal interest deemed
insufficient in Citizens United. The two dissenting
justices objected to this attempt to distinguish Citizens
United, with Justice Nelson rejecting the call by some
for Montana “to thumb its nose at the federal
government....” Id. at 71 (Nelson, J., dissenting). It
was this decision of the Montana Supreme Court
which was summarily reversed by this Court in 2012.
B.

Montana’s Second Effort to Ban
Corporate Expenditures with MCA § 131-101 (2015).

Montana legislators would not relent in their effort
to protect themselves from public criticism (see Section
III, infra), going back to their drawing boards to
develop another means to achieve their objective. They
did so with a vengeance with a new statute in 2015.
The method chosen was to define the term
“electioneering communication” in the broadest

8
possible manner and to impose the extraordinary
burden of “political committee” status on any
corporation daring to make independent expenditures.
The term “electioneering communication” came
into the lexicon of election law in Section 201 of the
Bipartisan Campaign Reform Act of 2002 (“BCRA”),
116 Stat. 89, which created a discrete subset of
independent expenditures:
(i) The term ‘electioneering communication’
means any broadcast, cable, or satellite
communication which —
(I) refers to a clearly identified candidate for
Federal office;
(II) is made within — (aa) 60 days before a
general, special, or runoff election for the office
sought by the candidate; or (bb) 30 days before a
primary or preference election, or a convention or
caucus of a political party that has authority to
nominate a candidate, for the office sought by the
candidate; and
(III) in the case of a communication which refers
to a candidate for an office other than President or
Vice President, is targeted to the relevant
electorate. [Id., § 201(a) (emphasis added).]
Significantly, the BCRA definition of
“electioneering communication” does not require the
speaker to engage in “express advocacy” (e.g., “vote for”
or “vote against” under Buckley at 44, n.52) or even
“the functional equivalent of express advocacy” (11
C.F.R. § 109.21(c)(5)). The definition is triggered by a
single reference to a candidate — most often an

9
incumbent officeholder seeking re-election. And there
is not even a requirement that the communication
refer to an election. Rather, even a pure “issue ad”
addressing a public policy matter, that is
communicated in the month(s) before an election
(when the American people are often paying the most
attention to how they have been represented) which
deigns to criticize an incumbent by name (such as for
a vote taken on an important issue), became heavily
regulated. In these two respects, the definition of
“electioneering communication” in the Montana statute
is the same as the BCRA definition.3
In most other respects, however, the Montana
statute dramatically expands each of the four criteria
under BCRA. While the BCRA definition applies only
to “broadcast, cable, or satellite communication[s]”
Montana applies its law to almost every type of
communication imaginable — “radio, television, cable,
satellite, internet website, newspaper, periodical,
billboard, mail, or any other distribution of printed
materials...” MCA § 13-1-101. While the BCRA
definition applies only to a communication which
references a “candidate,” Montana adds any reference
to a “political party, ballot issue, or other question
submitted to the voters....” While the BCRA definition
applies only to communications within 30 days of a
primary election or 60 days of a general election,
Montana extends the period to 85 days before either a

3

Additionally, both BCRA and the Montana statutes regulating
“electioneering communications” include an exception for the
institutional press.

10
primary or a general election.4 And while the BCRA
definition requires targeting to the relevant electorate,
which Federal Election Commission (“FEC”)
regulations define to mean reaching 50,000 voters (11
C.F.R. § 100.29a(b)(3)), Montana reduces the number
of people reached to any number “more than 100.” See
Petition for Certiorari Appendix (“App.”) at 61.
This Court approved BCRA’s special regulations
imposed on “electioneering communications” in
McConnell v. Federal Election Commission, 540 U.S.
93 (2003), because the BCRA rules were directed at a
specifically defined form of communication — targeted
broadcast ads aired in a short window before an
election. Because the Montana law is far more
expansive, this Court’s analysis in McConnell cannot
be presumed to sanction Montana’s statute simply
because the Montana legislators employed the same
term — “electioneering communications” — as was
used in BCRA. See id. at 189-94.

4

The 2020 Montana primary date is June 2, 2020, and 85 days
before then is March 9, 2020. The 2020 Montana general election
is November 2, 2020, and 85 days prior is August 9, 2020. Thus,
the period during which Montana’s “electioneering
communication” rules apply is March 9, 2020 through June 2,
2020, and August 9, 2020 through November 2, 2020 — about half
of the year.

11
C.

Montana
Law
Distribution of
Candidates.

Even
Books

Regulates
Mentioning

The Petition for Certiorari (“Pet. Cert.”) provides
an illustration of how Petitioner National Association
for Gun Rights (“NAGR”) would be constrained if it
sought to mail a book to just 100 persons in the months
before an election. See Pet. Cert at 24. This scenario
is entirely plausible. Indeed, the Montana definition
of “electioneering communication” includes “any other
distribution of printed materials,” which would
certainly include books. MCA § 13-1-101(16)(a).
This is very similar to the type of campaign finance
restriction which caused this Court to express great
concern during the first argument before this Court in
Citizens United. Deputy Solicitor General Malcolm L.
Stewart adopted the position that the FEC “could
prohibit the publication of [a] book using the corporate
treasury funds,” on a service such as Kindle employing
satellites before an election. See Citizens United oral
argument (Mar. 24, 2009) at 27-30. During reargument after supplemental briefing, then-Solicitor
General Kagan, for the United States, withdrew that
extremely controversial position. See Citizens United
oral argument (Sept. 9, 2009) at 64-68. Now, with its
2015 law, Montana has reverted to a position similar
to that repudiated by General Kagan, i.e., that a state
may regulate the distribution of a book before an
election.

12
D.

Montana Law Imposes Burdensome
Political Committee Status on
Individuals and Corporations.

Not content to expand the term “electioneering
communications” to include virtually all forms of
communication, the Montana scheme increases the
burden on entities conducting electioneering
communications in order to discourage their use.
Although federal law only requires that the entity
making the electioneering communication file a report
with the FEC (see 52 U.S.C. § 30101(f)(2)(E) & (F)),
Montana law requires the entity to reconstitute itself
as a political committee, complete with organizational,
recordkeeping, reporting, and other requirements.
MCA § 13-1-101(a)(31) defines “political committee” to
be “a combination of two or more individuals or a
person other than an individual who receives a
contribution or makes an expenditure: ... (iii) to
prepare or disseminate an ... electioneering
communication....” Federal law does not convert one
corporation or two individuals into a political
committee — but Montana law does. By virtue of
declaring either one corporation or two persons acting
together to be a “political committee,” Montana then
imposes the continuing burdens of appointing a
campaign treasurer,5 maintaining money in a bank

5

The only statutory burden on organizations making
electioneering communications that was lifted by the Montana
Supreme Court was the requirement that the committee have a
treasurer who was a “registered voter” in Montana. See NAGR v.
Mangan, 933 F.3d 1102, 1120 (9th Cir. 2019) (“NAGR-2”).

13
with branches in Montana, recordkeeping, reporting,
etc.
Consider how the Montana definition of a political
committee would apply to two neighbors in any town in
Montana. Suppose that a member of the legislature
had introduced and supported a bill to require grocery
stores to collect a non-refundable $1.00 fee on each can
of food sold in a grocery store in Montana, ostensibly to
pay the cost of disposing of that can. Suppose further
that these two neighbors collaborated to create and
distribute a pamphlet to more than 100 people costing
over $250 containing the name and photo of the
legislator sponsoring the bill, and explaining how
foolish they believed that bill to be. By operation of
Montana law, those two neighbors would have just
formed a political committee, and all of the
requirements of a political committee status are visited
upon them. Any number of other examples can be
formulated to show that imposing political committee
status on those engaged in “electioneering
communications” is a remarkable burden which would
discourage most citizens from any involvement in such
matters. Of course, that is the precise purpose of
enacting such burdensome laws. See Section III, infra.
E.

Montana Law Compels Many Nonprofits
to Make Public Disclosure of Donor
Lists.

Among the most troublesome of those additional
requirements imposed by Montana is that a nonprofit
would be compelled to disclose components of its donor
list to both the public and the government. Each

14
nonprofit corporation expending any funds for an
electioneering communication would be required to
disclose the name, address, and occupation of all
donors who contribute $35 or more. MCA § 13-37229(1). For “incidental committees,” such as NAGR,
public reports must identify (i) all donors who
designated the gift to support a specified electioneering
communication, and (ii) all persons contributing in
response to a general appeal by such committee to
support, inter alia, electioneering communications.
See Pet. Cert. at 9-10.
Since it is a common practice for nonprofit
organizations to identify multiple programs in
fundraising solicitations, any donor who responds to a
solicitation which even mentions such communications
in passing, and made a donation of $35 or more, would
need to be disclosed. Moreover, Montana law does not
distinguish between donors from Montana and donors
from some other state, so the nonprofit would be
required to disclose the identity of donors nationwide.
Once the name, address, and occupation of the donor
is put on the public record, that individual could
become subject to harassment by those who object to
the expenditure. In Citizens United, dissenting from
the Court’s approval of disclosure of donors, Justice
Thomas explained the risk:
I cannot endorse a view of the First
Amendment that subjects citizens of this
Nation to death threats, ruined careers,
damaged or defaced property, or pre-emptive
and threatening warning letters as the price
for engaging in “core political speech....”

15
[Citizens United
dissenting).]

at

485

(Thomas,

J.,

Thus, Montana’s law, having crushed the
distinction been contributions and expenditures
established in Buckley, and expanded the meaning of
“electioneering communications” in McConnell, goes
well beyond anything previously sanctioned by this
Court.
Its effort to regulate and discourage
expenditures which present no risk of corruption or
appearance of corruption should be rejected.
II. MONTANA LAW SUBVERTS THE PEOPLE’S
RIGHT OF ASSEMBLY AND TO PETITION
GOVERNMENT.
Petitioner NAGR is a “‘grassroots organization
whose mission is to defend the right to keep and bear
arms, and advance that God-given Constitutional right
by educating the public and urging them to take action
in the public policy process.’” Nat’l Ass’n for Gun
Rights, Inc. v. Motl, 279 F. Supp. 3d 1100, 1102 (D. Mt.
2017) (“NAGR-1”). By virtue of its exemption from
federal income tax under IRC section 501(c)(4), NAGR
must have the “primary” purpose of promoting “social
welfare,” and IRS regulations expressly exclude from
the definition of social welfare any “participation or
intervention in political campaigns.” See 26 C.F.R.
§ 1.501(c)(4)-1(a)(2).6 Thus, so long as it is not its
primary purpose, NAGR may engage in independent
6

The Ninth Circuit’s complete mischaracterization of the rules
governing the nonprofit tax status applicable to Petitioner NAGR
is discussed in Section IV, infra.

16
expenditures supporting or opposing candidates;
however only issue advocacy is involved in this case.
Organizations like NAGR, exempt under IRC
§ 501(c)(4), have become the primary vehicle that the
American people use to exercise their right to assemble
with other like minded citizens, and to monitor and
seek to influence the policies of their state and federal
governments.
Joseph Story believed that the
constitution’s assembly and petition guarantees
would seem unnecessary to be expressly
provided for in a republican government, since
it results from the very nature of its structure
and institutions. It is impossible, that it could
be practically denied, until the spirit of liberty
had wholly disappeared, and the people had
become so servile and debased, as to be unfit to
exercise any of the privileges of freemen. [J.
Story, II Commentaries on the Constitution
§ 93-94 (5th ed. 1891).]
However, it is fortunate that this constitutional
protection was made express, to be drawn upon when
government seeks to use “campaign finance laws” to
suppress pesky citizens from assembling together to
petition government to advance their views through
organizations like NAGR, dissenting from policies
preferred by incumbent state legislators.
The current litigation arose out of NAGR’s effort to
educate the public about a threat to Montana residents
posed by legislation introduced into the state
legislature, and thereby carry out its mission to

17
promote social welfare. In response, Montana used its
“political practice” regulations to suppress NAGR’s
educational and assembly activities.
In March 2012, NAGR sent several mailers to the
residents of Flathead County, Montana, discussing the
actions of a named state senator to kill a bill that, if
enacted into law, would have ensured “‘the availability
of Montana ammunition [and] the manufacture of
ammunition components.’” NAGR-1 at 1102. Instead,
this same named senator was responsible for the
defeat of the bill which, in turn, caused 11 percent
unemployment in Flathead County, for which the
mailer urged the people to contact the senator “‘right
away and DEMAND he apologize for killing new
manufacturing in Flathead County.’” Id. This mailing
constituted pure issue advocacy.
Nonetheless, as a result of this mailer, Montana’s
Commissioner of Political Practices (“COPP”) sprang
into action, sending letters to NAGR and six other
corporate entities advising that they “‘failed to meet
Montana campaign practice law and standards by
failing to register, report and disclose ... illegal
corporate contributions for or against a ... primary
election candidate.’” NAGR-1 at 1103. Thus, the
COPP letter advised that “there was sufficient
evidence to show that NAGR ‘violated Montana’s
campaign practices laws ... and that civil adjudication
of the violation is warranted.’” Id.
In March 2014, NAGR filed suit in federal court,
seeking to enjoin COPP “from pursuing civil penalties
against the organization based on the [March] 2012

18
mailer.” NAGR-1 at 1103. Additionally, NAGR sought
a ruling on whether informing the public “where
legislators and governmental officials stand on issues
related to the Second Amendment ... [by] mail[ing]
educational literature to Montanans [would] subject[]
the organization to disclosure requirements under
Montana law” governing “electioneering
communications.” NAGR-2 at 1108.7
In justification of its limitation on a discrete
“category of speech,” the State claimed that its purpose
was “increasing transparency, informing Montanans
about who is behind the messages vying for their
attention, and decreasing circumvention’ of campaign
finance laws.” NAGR-2 at 1108.
In order to implement these policies, the State
legislature enacted a series of statutory provisions
that, if enforced, would virtually transform NAGR
from an IRC § 501(c)(4) non-political educational
organization into a State-defined “political committee”
— the same type of entity which is exclusively
designed to raise and spend money in support of or
opposition to a candidate for election or nomination to
a political office. See id. at 1108-1109. Indeed,
Montana Code § 13-1-101(31)(a), if applied to NAGR,
would require it to register with COPP as a “political
committee” if it “makes an expenditure of more than

7

Members of the establishment press appear to cause less trouble
for legislators than advocacy groups like Petitioner and thus are
exempted from compliance electioneering communication rules.
See MCA § 13-1-101(16)(b).

19
$250 on a single electioneering communication.”
NAGR-2 at 1109.
Montana law “distinguishes among several types
of political committees” (NAGR-2 at 1109), including,
in particular, “‘incidental committees’” and
“‘independent committees.’” Id. at 1109-10. An
incidental committee is one “‘not specifically
organized or operating for the primary purpose of
supporting or opposing candidates or ballot issues....’”
Id. at 1110.
An independent committee is
“organized for the primary purpose of receiving
contributions and making expenditures that is not
controlled either directly or indirectly by a candidate
and that does not coordinate with a candidate....” Id.
at 1110. The courts below concluded that NAGR was
an incidental committee and thus subject to
somewhat less intrusive disclosure requirements. Id.
at 1110-11. The district court ruled that Montana’s
laws satisfied “constitutional scrutiny because they are
tailored to the degree of an organization’s political
activity and the timing of its communications.” NAGR1 at 1107. The district court found that:
registering as an incidental committee
imposes a minimal burden on an
organization. Indeed, a political committee
registers by completing a Form C-2,
“Statement of Organization,” which can be
completed in less than ten minutes.... This
form, like all COPP forms, is available online.
[Id. at 1107 (emphasis added).]

20
However, completing and filing the required COPP
forms is not just a minimal paper transaction. It is an
act of submission to the State’s Commissioner of
Political Practices. It only begins with filing the initial
form, the Statement of Organization, including a
statement of names and addresses of all officers,
appointment of a treasurer, local banking, and
recordkeeping of contributions and expenditures. Id.
at 1109. See also Pet. Cert. at 8-10. Indeed, there is
an entire chapter of the Montana Code entitled
“Control of Campaign Practices,” MCA §§ 13-37-101 13-37-131, evidencing Montana’s desire to “control” the
behavior of those involved in Montana politics.
Appointed to a six-year term (MCA § 13-37-103) by
the Governor with the consent of the Senate, the
Commissioner may be removed only for incompetence,
malfeasance, or neglect of duty. MCA § 13-37-102.
Among his duties are administrative rule-making
(MCA § 13-37-114), inspection , investigation of alleged
violations (13-37-111(1)). He is vested with subpoena
power and with authority to work with county
attorneys to enforce state campaign finance rules. He
is authorized to create and to update Forms and edit
manuals governing the implementation of policies and
practices. See MCA § 13-37-117; see also NAGR -2 at
1107-08.
In short, Montana gives vast power to the
Commissioner to reign as the State’s political practices
czar, displacing the People of Montana in whom alone
is the State’s political sovereignty. As this Court
proclaimed in 1876, the right of a self-governing people
to assemble has “always ... been[] one of the attributes

21
of citizenship under a free government [and] is found
wherever civilization exists.
United States v.
Cruikshank, 92 U.S. 542, 551 (1876). As the People of
Pennsylvania declared in their 1776 constitution, it is
the People’s “right to assemble” together, to consult for
their common good, to instruct their
representatives....” Sources of our Liberties at 331 (R.
Perry & J. Cooper, eds., ABA Foundation: 1973).
Indeed, at the heart of the right of the people to
assemble peaceably is the right to choose the subject
matter of the assembly and the viewpoints to be
presented. As this Court stated in DeJonge v. Oregon,
299 U.S. 353 (1937):
to maintain the opportunity for free political
discussion, to the end that government may be
responsive to the will of the people and that
changes, if desired, may be obtained by
peaceful means. Therein lies the security of
the Republic, the very foundation of
constitutional government. [Id. at 365.]
Rather than allowing a political czar to intervene to
protect incumbent elected officials from criticism (here,
one of the Senators vested with power to approve the
Commissioner’s appointment), the People of Montana
should have access to information from all sources
without the state imposing burdens on that speech.

22
III.

THE FREEDOM OF THE PRESS
PROTECTS THE PREROGATIVES OF THE
PEOPLE FROM INTRUSION BY
POLITICIANS
CONTROLLING
POLITICAL DISCOURSE.

The Montana legislature has created in MCA
sections 13-37-101(1) and 13-37-102 a Commissioner of
Political Practices, vesting him with powers that
transcend campaign activities, that extend to nonelection political activities.
Indeed, the state
legislature has vested the Commissioner with
authority to enforce laws against communications that
refer to or depict incumbents who are candidates, even
though the communications at issue have no express
advocacy or the functional equivalent thereof. Not only
that, the Commissioner is empowered by law to
investigate whether an “electioneering communication”
which is otherwise subject to control by the State is
exempt from this law because it appears in a “bona fide
news story or commentary” so long as it is distributed
by an exempt medium. In short, Montana law vests
“editorial control” in the Commissioner. Yet it
sanctions the same message published by the
“establishment press” that it regulates when published
by all others.8
Such delegation is flatly
8

During the first Citizens United oral argument (Mar. 24, 2009),
Justice Scalia gave a memorable illustration of who owns the
press freedom, explaining: “But does ‘the press’ mean the media
in [Freedom of the Press]? You think that in 1791 there were —
... people running around with fedoras that had press — little
press tickets in it, ‘Press’? Is that what ‘press’ means in the
Constitution? Doesn’t it cover the Xerox machine? Doesn’t it
cover the — the right of any individual to — to write, to publish?...

23
unconstitutional because it “intru[des] into the
function of editors” in violation of the freedom of the
press. Miami Herald Publishing Co., Inc. v. Tornillo,
418 U.S. 241, 258 (1974). As the Tornillo Court
explained, “the choice of material to go into a
newspaper ... and treatment of public issues and public
officials — whether fair or unfair — constitute the
exercise of editorial control and judgment.” Id. By so
ruling, this Court rejected the argument that the
Florida right-of-reply statute “furthered the ‘broad
societal interest in the free flow of information to the
public.’” Id. at 245. In like manner, and for the same
reason, the Ninth Circuit erred when it ruled that
NAGR’s First Amendment right could be overridden by
Montanans’ interests in “‘increasing transparency,
informing Montanans about who is behind the
messages vying for their attention.’” See NAGR-2 at
1116.
In reviewing campaign finance laws, courts must
always remember that incumbents write the laws, not
challengers, and incumbents generally have one
overriding objective — re-election. Therefore, no court
should presume that campaign finance laws are fair
and even-handed to challengers or critics of
incumbents. Montana law certainly is not. Montana
argues that it is the people who want to know who is
supporting the electioneering communications (see
NAGR-1 at 1107-08), but truthfully, it is incumbents
who want to know — sometimes so those contributing

[T]here’s no basis in the text of the Constitution for exempting
press in the sense of, what, the Fifth Estate?”

24
to an effort to criticize an incumbent can be driven
away from the publisher.
At the dawn of modern campaign finance
legislation, in Buckley, the Court found “[t]here is no
such evidence to support the claim that the
contribution limitations in themselves discriminate
against major-party challengers to incumbents.”
Buckley at 32. However, much evidence of such
discrimination now exists. An economic analysis of the
anti-competitive effect of federal campaign finance law
was presented in the McConnell litigation by some of
these amici through the testimony of Dr. James Miller,
former Chairman of the Federal Trade Commission,
based on his book Monopoly Politics (Hoover Inst.
Press: 1999).
The desire of those in office to retain their position
of power is not new. As Edmund Burke explained:
“Those who have been once intoxicated with power,
and have derived any kind of emolument from it, even
though for but one year, can never willingly abandon
it.”9 There is no reason to believe that much has
changed with our modern legislatures.
IV. MONTANA
IMPOSES
SIGNIFICANT
BURDENS ON FIRST AMENDMENT RIGHTS
OF CHARITIES.
The Ninth Circuit opinion badly misconstrued
federal tax law governing the Petitioner, asserting:
9

See https://www.oxfordreference.com/view/10.1093/acref/
9780191826719.001.0001/q-oro-ed4-00002268.

25
“To retain its federal tax status, NAGR cannot engage
in ‘direct or indirect participation or intervention in
political campaigns on behalf of or in opposition to any
candidate for public office.’ 26 C.F.R. § 1.501(c)(4)1(a)(2)(ii).” NAGR-2 at 1108. This is not, in fact, what
that regulation states.
Rather, that regulation
requires that the promotion of social welfare be the
primary purpose of an IRC § 501(c)(4) organization,
but allowing campaign activity if it is a secondary
purpose of the organization.
Instead, the type of nonprofit organizations barred
from any campaign activity are charities exempt under
IRC § 501(c)(3). Since the type of activity undertaken
by NAGR was not truly campaign-related, it could be
and is undertaken even by charities. However,
application of the Montana law to charities creates a
legal conundrum for those organizations as well.
Federal law allows charities to engage in issue
advocacy, but not campaign activity.
Montana
classifies a great swath of issue advocacy as
“electioneering communications” and requires a
charity to register as a political committee. Thus,
Montana law could give rise to the false impression
that any such charity is violating federal tax law by
engaging in campaign activity.
Assume, for example, that the American Lung
Association, which is tax exempt under IRC § 501(c)(3),
opposes vaping and wants to mail its supporters in
Montana during the proscribed period to urge them to
contact named legislators (who are often candidates for
re-election) to regulate vaping. If this mail were sent
during the months before an election, Montana would

26
consider this communication engaging in
“electioneering.” Pro-vaping groups could be expected
to demand that Montana compel this charity to
register and report as a political committee, and even
file complaints against the American Lung Association
with the IRS for electioneering, asking the IRS to
revoke its (c)(3) status and requiring the charity to
defend itself. To avoid that, charities will be forced to
make editorial decisions about their issue advocacy in
Montana, to avoid mentioning the names of incumbent
officeholders, or to avoid issue advocacy in Montana
altogether.
This is not the situation with Petitioner which is
exempt under IRC § 501(c)(4), but application of the
Montana law to IRC § 501(c)(3) organizations is not an
unrealistic hypothetical. A three-judge panel in the
U.S. District Court for the District of Columbia upheld
the application of BCRA’s electioneering
communications reporting requirements to IRC
§ 501(c)(3) charities in Independence Institute v. FEC,
216 F. Supp. 3d 176, 192-93 (D.D.C. 2016), which was
affirmed by this Court summarily. Independence
Institute v. FEC, 137 S. Ct. 1204 (2017).

27
CONCLUSION
For the reasons stated above, the Petition for a
Writ of Certiorari should be granted.
Respectfully submitted,
MARK J. FITZGIBBONS
9625 Surveyor Court
Suite 400
Manassas, VA 20110
Attorney for Amicus Curiae
ATA

WILLIAM J. OLSON*
HERBERT W. TITUS
JEREMIAH L. MORGAN
ROBERT J. OLSON
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
wjo@mindspring.com
Attorneys for Amici Curiae

JOSEPH W. MILLER
RESTORING LIBERTY
ACTION COMMITTEE
P.O. Box 83440
Fairbanks, AK 99708
Attorney for Amicus Curiae RLAC
*Counsel of Record

January 15, 2020

